No. 20-472

 

 

IN THE
Supreme Court of the United States

HOLLYFRONTIER CHEYENNE REFINING, LLC,
HOLLY-FRONTIER REFINING & MARKETING, LLC,
HOLLYFRONTIER WOODS CROSS REFINING, LLC, &
WYNNEWOOD REFINING Co., LLC,

Petitioner,
v.

RENEWABLE FUELS ASSOCIATION, et al.,
Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Tenth Circuit

MOTION FOR LEAVE TO FILE BRIEF
AMICUS CURIAE AND BRIEF OF
COUNTRYMARK REFINING AND

LOGISTICS, LLC AS AMICUS CURIAE

IN SUPPORT OF PETITIONERS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the brief contains
3,410 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

The motion contained within this publication has 438 words.

I declare under penalty of perjury that the foregoing is true and correct.

Executed on November 12, 2020.

 

Colin Casey Hoga:
Wilson-Epes Priming Co., Inc.
